                         STATEMENT FOR THE RECORD OF
                              DR. CHRISTINE BOESZ
                              INSPECTOR GENERAL
                         NATIONAL SCIENCE FOUNDATION
                                    before the
                                   U.S. SENATE
                         COMMITTEE ON APPROPRIATIONS
                                February 17, 2005


       Chairman Bond, Senator Mikulski, and distinguished members of the
Subcommittee, I am Dr. Christine Boesz, Inspector General at the National Science
Foundation (NSF). I once again appreciate the opportunity to present to you
information as you consider NSF’s fiscal year 2006 budget request. NSF’s work over
the past fifty-five years has had an extraordinary impact on scientific and engineering
knowledge, laying the groundwork for technological advances that have shaped our
society and fostered the progress needed to secure the Nation’s future. Throughout,
NSF has maintained a high level of innovation and dedication to American leadership in
the discovery and development of new technologies across the frontiers of science and
engineering.

        As you know, however, the nature of the scientific enterprise has changed over
the past few decades. Consequently, the challenges facing NSF have changed. My
office has and will continue to work closely with NSF management to identify and
address issues that are important to the success of the National Science Board and
NSF. I have now been the Inspector General of NSF for five years and am pleased to
have the opportunity to work with both Dr. Washington and Dr. Bement, sharing in their
vision of a truly successful organization. For the past four years, I have testified before
this Subcommittee on the issues that pose the greatest challenges for NSF
management. This year, I will provide an update, from my perspective as Inspector
General, on the progress being made at NSF to address the most critical of these
challenges.


                               AWARD ADMINISTRATION

          In a given year, NSF spends roughly 90 percent of its appropriated funds on
awards for research and education activities. Awarding and managing these grants,
cooperative agreements, and contracts is NSF’s primary business activity. While NSF
has a system for administering its peer review and award disbursement responsibilities,
it still lacks a comprehensive, risk-based program for monitoring its grants and
cooperative agreements once the money has been awarded.

      In response to a reportable condition identified in the Independent Auditors
Report for the past four years, the agency developed an Award Monitoring and
Business Assistance Program Guide that includes post-award monitoring policies and
procedures, a systematic risk assessment process for classifying high-risk grantees,
and various grantee analysis techniques. NSF also developed an annual grantee-
monitoring plan, conducted site visits on selected high-risk grantees, and provided
grant-monitoring training for its reviewers. In addition, during the past year, NSF
realigned staff and resources to better address this challenge and contracted with a
consultant to independently assess its post-award monitoring program.

        While these efforts represent positive steps toward an effective award-monitoring
program, concerns remain about the limitations of the risk model in identifying all high-
risk awards and the adequacy of site visit procedures and the necessary resources
provided to the post-award monitoring program. In addition, a recent audit by my office
further highlights the need for increased post-award monitoring. My auditors found that
a significant number of both annual and final project reports required by the terms and
conditions of NSF’s grants and cooperative agreements were either submitted late or
not at all. This was due in part because of a lack of emphasis placed on the importance
of these reports, and because NSF staff do not have the time to adequately address this
facet of award administration. In addition, my auditors found that contrary to its policy,
NSF has continued to fund some principal investigators who have not yet submitted
their final project reports.

        But I am encouraged by the results of NSF’s consultant’s independent
assessment of the post-award monitoring program, which contained concerns similar to
ours. The consultant’s report identifies many opportunities for improvement and
recommendations for positive change. Implementing a plan to address these
opportunities for improvement would address many of our concerns and would be a
significant step for NSF towards successfully meeting this challenge.


              MANAGEMENT OF LARGE INFRASTRUCTURE PROJECTS

       Throughout my five-year tenure as Inspector General of NSF, we have
considered management of large facility and infrastructure projects to be one of NSF’s
top management challenges. 1 While this is certainly a subset of award administration, I
continue to feel strongly that large facility management warrants independent attention.
As you know, NSF has been increasing its investment in large infrastructure projects
such as accelerators, telescopes, research vessels and aircraft, supercomputers, digital

1
  Memorandum from Christine C. Boesz, Inspector General, National Science Foundation, to Warren
Washington, Chairman, National Science Board, and Arden Bement, Acting Director, National Science
Foundation (Oct. 15, 2004); Memorandum from Christine C. Boesz, Inspector General, National Science
Foundation, to Warren Washington, Chairman, National Science Board, and Rita R. Colwell, Director,
National Science Foundation (Oct. 17, 2003); Memorandum from Christine C. Boesz, Inspector General,
National Science Foundation, to Warren Washington, Chairman, National Science Board, and Rita R.
Colwell, Director, National Science Foundation (Dec. 23, 2002); Memorandum from Christine C. Boesz,
Inspector General, National Science Foundation, to Eamon M. Kelly, Chairman, National Science Board,
and Rita R. Colwell, Director, National Science Foundation (Jan. 30, 2002); Letter from Christine C.
Boesz, Inspector General, National Science Foundation, to Senator Fred Thompson, Chairman, Senate
Committee on Governmental Affairs (Nov. 30, 2000).


                                                  2
libraries, and earthquake simulators. Many of these projects are large in scale, require
complex instrumentation, and involve partnerships with other Federal agencies,
international science organizations, and foreign governments. Some, such as the
construction of the new South Pole Station, present additional challenges because they
are located in harsh and remote environments.

        As I have testified in the past, the management of these awards is inherently
different from the bulk of awards that NSF makes. While oversight of the construction
and operations of these large facility projects must always be sensitive to the scientific
endeavor, it also requires a different set of management skills for the NSF staff
involved. It requires expertise in the construction and oversight of large facilities; close
attention to tracking costs and meeting deadlines; and effective coordination with
scientists, engineers, project managers, and financial analysts. Although NSF does not
directly operate these facilities, it is ultimately responsible and accountable for their
success. Consequently, it is vital that NSF, through disciplined project management,
exercise proper stewardship over the public funds invested in these large projects.

         In fiscal years (FYs) 2001 and 2002, my office issued two audit reports on large
facilities with findings and recommendations aimed at improving NSF’s management of
these projects. 2 Primarily, our recommendations were aimed at (1) increasing NSF’s
level of oversight with particular attention to updating and developing policies and
procedures to assist NSF managers in project administration, and (2) ensuring that
accurate and complete information on the total costs of major research equipment and
facilities is available to decision makers, including the National Science Board, which is
responsible for not only approving the funding for these large projects, but also setting
the relative priorities for their funding.

       NSF continues to make gradual progress towards addressing the reports’
recommendations. The most significant progress was the hiring of a new Deputy
Director for Large Facility Projects. During the past year, NSF has made further
progress by providing this Deputy Director with 1.5 FTE’s, which allowed him to begin to
develop the detailed guidance needed by program officers to adequately manage their
large facility projects. Among numerous duties related to large facility project
management, the Deputy Director chairs a facilities panel that has responsibility for
approving management plans for projects, and he receives periodic reports on active
projects.

       However, the Large Facility Projects Office continues to face a number of
obstacles to successfully implementing a viable large facility management and oversight
program. To enable this Office to develop a more influential role, NSF’s senior
management must clearly recognize and champion the Large Facility Projects Office’s
oversight responsibility, and provide it with the independent authority and resources to

2
 OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF THE FINANCIAL MANAGEMENT OF
THE GEMINI PROJECT, Report No. 01-2001 (Dec. 15, 2000); OFFICE OF INSPECTOR GENERAL, NATIONAL
SCIENCE FOUNDATION, AUDIT OF FUNDING FOR MAJOR RESEARCH EQUIPMENT AND FACILITIES, Report No. 02-
2007 (May 1, 2002).


                                               3
handle it. These resources need to include funding for staff, contract support, travel,
and other necessary resources. Without this management framework, the role of NSF’s
Large Facility Projects Office is likely to remain one that is primarily advisory and
collaborative, rather than one that has a formal charge to substantively and positively
influence project management decisions.


                   STRATEGIC MANAGEMENT OF HUMAN CAPITAL

        While the previous two management challenges are of an ongoing and urgent
nature, they may be symptomatic of a larger, more pressing need for improved strategic
management of NSF’s human capital. In order to fully address its award management
challenges, NSF will need to devote more resources and attention to making business
and process improvements, while at the same time, planning for its future workforce
needs. Although advances in technology have enhanced the workforce’s productivity,
NSF’s rapidly increasing workload has forced the agency to become increasingly
dependent on temporary staff and contractors to handle the additional work. NSF’s
efforts in the past to justify an increase in staff have been impeded by the lack of a
comprehensive workforce plan that identifies workforce gaps and outlines specific
actions for addressing them. Without such a plan, NSF cannot determine whether it has
the appropriate number of people or the types of competencies necessary to
accomplish its strategic goals.

        NSF has recognized the seriousness of this challenge and, as I testified last
year, has now identified investment in human capital and business processes, along
with technologies and tools, as objectives underlying its new Organizational Excellence
strategic goal. 3 NSF also contracted in fiscal year 2002 for a comprehensive, $14.8
million, three to four-year business analysis, which includes a component for a Human
Capital Management Plan. Preliminary assessments provided by the contractor
confirmed that NSF’s workforce planning to date has been limited and identify specific
opportunities for NSF to improve in this area. NSF’s Human Capital Management Plan,
which was delivered in December 2003, links Human Capital activities to the NSF
business plan and to the Human Capital Assessment and Accountability Framework
provided by the Office of Personnel Management. While the current plan provides a
roadmap for identifying NSF’s future workforce needs, the needs themselves are still in
the process of being defined. I continue to believe NSF cannot afford to wait long to
address its workforce issues. If not adequately resolved, these issues will undermine
NSF’s efforts to confront its other pressing management challenges and to achieve its
strategic goal of Organizational Excellence.

       NSF’s reliance on “non-permanent” personnel is another area of concern. Forty-
seven percent of NSF’s 700 science and engineering staff are either visiting personnel,
temporary employees, or intermittent employees. Visiting personnel make an important
contribution to NSF’s mission by enabling the agency to refresh and supplement the

3
 NATIONAL SCIENCE FOUNDATION, STRATEGIC PLAN FY 2003 – FY 2008 (Sept. 30, 2003)
<http://www.nsf.gov/od/gpra/Strategic_Plan/FY2003-2008.pdf>.


                                               4
knowledge base of its permanent professional staff. But managers who serve at NSF
on a temporary basis frequently lack institutional knowledge and are less likely or able
to make long-term planning a priority. Moreover, there are substantial administrative
costs that NSF incurs in recruiting, hiring, processing, and training personnel that rotate
every 1 to 4 years. In FY 2004, my office conducted an audit that identified the
additional salary, fringe benefits, travel and other costs of visiting or temporary
personnel, and found three areas where NSF could improve its administration of the
programs. 4 In short, while visiting personnel are an important resource for NSF, the
agency must continually balance the benefits of their services against the additional
costs involved.


        In conclusion I would like to comment briefly on my office’s fiscal year 2006
budget request of $11.5 million. Although this request represents a $1.47 million (14.7
percent) increase over the fiscal year 2005 Current Plan, the increase is primarily to
fund the annual audit of NSF’s financial statements, which previously has been provided
through NSF’s appropriations. The contract for this audit will be re-competed in 2005,
and we anticipate that its cost in fiscal year 2006 will increase dramatically, consuming
75 percent or more of our total requested increase. 5 The bulk of the remaining increase
will be applied towards the expected pay increase for civilian personnel.

        My office will continue to focus its audit attention on NSF’s most pressing
management challenges, some of which I have described for you today. In addition, we
will also maintain a focus on specific issues that emerge concerning the management of
NSF programs, procurement and acquisition, information technology, human capital,
awardee financial accountability and compliance, and OMB Circular A-133 audits. We
have recently made a strong commitment to improving the quality of audits conducted by
our contract CPA firms, and the increase in time and effort required to meet the higher
standards is significantly raising the costs of contracted audits. 6 In recent years, these
audits have uncovered material issues concerning unallowable indirect costs, unfunded
cost-sharing commitments, and records maintained by large school systems that were
so inadequate they could not be audited. It is likely that the continuing increase in costs
may result in a reduction in the number of contracted audits in fiscal year 2006. We will
also have to more gradually phase in our assessments of NSF actions resulting from
the agency’s multiyear business analysis contract and workforce plan, which are
scheduled for completion in FY 2005. Finally, while we will be able to initiate an audit
on international collaborations, which are an integral part of NSF’s portfolio, with


4
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF COSTS ASSOCIATED WITH
VISITING PERSONNEL, Report No. 04-2006 (July 23, 2004). Opportunities for improvement cited in the
report include consulting income documentation, IPA pay computations, and VSEE cost of living
adjustments.
5
  Our survey of the current audit market shows that audit costs in general are on the rise because of
Sarbanes-Oxley and other government requirements. While the audit cost $800,700 in FY 2004 and is
projected to be $855,800 in FY 2005, the audit under a new contract is expected to exceed $1.0 million in
FY 2006.
6
  Most contract CPA audits currently range from $67,000 to $160,000.


                                                    5
particular attention to the accountability and audit requirements of international partners,
major efforts in this area may also have to be phased in.


      Mr. Chairman, this concludes my written statement. I would be happy to answer
any additional questions you or other members of the Subcommittee may have, or to
elaborate on any of the issues that I have addressed today.


                               CONTACT INFORMATION

      For information about this statement, please contact Dr. Christine C. Boesz at
703-292-7100 or cboesz@nsf.gov.




                                             6
